No.
INTHE

$'Upreme QCourt of tbe ~niteb $'1ates
ANDALUSIAN GLOBAL DESIGNATED
ACTIVITY COMPANY, ET AL.,

Petitioners,
V.

THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO , ET AL. ,

Respondents.
CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Petition for a Writ of Certiorari contains 8,988 words and complies with the
word limitation established by Rule 33.l(g)(i) of the Rules of this Court.
Dated: July 31, 2020

